                                       Ng to




        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
Cuyahoga County of Ohio
Department of Development –
Weatherization Assistance Program
Funds Provided by the American
Recovery and Reinvestment Act of
2009




OAS-RA-11-19                     September 2011
                                 Department of Energy
                                    Washington, DC 20585
                                       September 29, 2011


MEMORANDUM FOR THE ACTING ASSISTANT SECRETARY FOR ENERGY
               EFFICIENCY AND RENEWABLE ENERGY



FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Examination Report on "Cuyahoga County of Ohio
                         Department of Development − Weatherization Assistance Funds
                         Provided by the American Recovery and Reinvestment Act of 2009"

BACKGROUND

The attached report presents the results of an examination of the Cuyahoga County of Ohio
Department of Development's (County) implementation of the American Recovery and
Reinvestment Act of 2009 (Recovery Act) Weatherization Assistance Program (Weatherization
Program). The Office of Inspector General (OIG) contracted with an independent certified
public accounting firm, Lopez and Company, LLP, to express an opinion on the County's
compliance with Federal and State laws, regulations, and program guidelines applicable to the
Weatherization Program. The County is a sub-recipient of the Department of Energy's
(Department) Recovery Act Weatherization Program funding for the State of Ohio.

The Recovery Act was enacted to stimulate the economy and encourage investment in the
Nation's energy future. As part of the Recovery Act, the Weatherization Program received
$5 billion to reduce energy consumption for low-income households through energy efficient
upgrades. The State of Ohio received $267 million in Recovery Act Weatherization Program
funding, of which $9.4 million was allocated to the County. The State of Ohio Department of
Development was responsible for administering Weatherization Program grants, including funds
provided to the County.

CONCLUSIONS AND OBSERVATIONS

Lopez and Company, LLP expressed the opinion that except for the weaknesses described in its
report, the County complied in all material respects with the requirements and guidelines relative
to the Weatherization Program for the period July 1, 2009 through October 31, 2010. However,
the examination found that the County:

   •   May have approved applicants for weatherization services based on outdated income
       information. The County relied on the State's verification of income eligibility, but did
       not verify that the income information in the State’s database was based on the 12-month
       period immediately prior to application;
                                                2


   •   Did not reimburse interest earned on cash advances in a timely manner. As a result of the
       examination, on July 7, 2011, the County reported it had returned more than $76,000 in
       earned interest to the State Treasurer of Ohio for remittance to the U.S. Department of the
       Treasury;

   •   Had a significant percentage of homes requiring re-work prior to completion.
       Specifically, 13 of 35 homes reviewed had final inspections that identified re-work
       needed. Examples of re-work needed included ducts not properly sealed; exterior siding
       not properly installed; and, two instances in which the wrong carbon monoxide detector
       had been installed; and,

   •   Did not verify the number of work hours reported to the State by one contractor or verify
       that it had paid wages in accordance with Davis-Bacon Act requirements.

The report makes recommendations to the County to improve administration of its
Weatherization Program. The County provided comments that expressed agreement with the
recommendations and provided planned and ongoing actions to address the issues identified.
The State of Ohio also concurred with the findings and recommendations in the examination
report and agreed with the County's planned corrective actions. While these comments and
planned corrective actions are responsive to our recommendations, the Department needs to
ensure the planned actions are taken.

RECOMMENDATIONS

We recommend the Acting Assistant Secretary for Energy Efficiency and Renewable Energy:

    1. Ensure appropriate action is taken by the State of Ohio to improve administration of
       Recovery Act Weatherization Program funds at Cuyahoga County.

DEPARTMENT COMMENTS AND AUDITOR RESPONSE

The Department's Office of Energy Efficiency and Renewable Energy concurred with the
report's recommendations and stated that during on-site monitoring visits; it would continue to
assess the progress towards implementing these and other program improvements. The
Department's comments are responsive to our recommendations.

EXAMINATION-LEVEL ATTESTATION

Lopez and Company, LLP conducted its examination in accordance with attestation standards
established by the American Institute of Certified Public Accountants as well as those additional
standards contained in Government Auditing Standards, issued by the Comptroller General of the
United States. The examination-level procedures included gaining an understanding of the
County's policies and procedures and reviewing applicable Program documentation. The
procedures also included an analysis of inspection results, records of corrective actions, and re-
                                               3


inspections of completed homes/units to ensure that any failures were properly corrected.
Finally, an analysis of associated cost data was performed to test the appropriateness of
payments.

The OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances where Lopez and Company, LLP did not
comply, in all material respects, with the attestation requirements. Lopez and Company, LLP is
responsible for the attached report dated September 23, 2011, and the conclusions expressed in
the report.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary for Energy
    Chief of Staff
                                                                 IG Report No. OAS-RA-11-19


                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the audit would have been helpful to the reader in understanding this
      report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report which would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
